                                     News From
                           The Office of Inspector General
                        Corporation For National And Community Service




EX-PROGRAM OFFICIAL PLEADS GUILTY TO THEFT

WASHINGTON (Feb. 7, 2005) - A former AmeriCorps program official in Baltimore
pled guilty on January 21, 2005, to a Federal theft charge following an investigation by
the Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation).

Kate L. Fernald was sentenced to two years’ probation, 250 hours of community service
and was ordered to make $44,757.50 in restitution to the Notre Dame Mission Volunteer
Program, Inc. (NDMVP), a Baltimore-based nonprofit that uses Corporation funding to
deploy AmeriCorps members in social service and education programs nationwide.

Investigators from the OIG disclosed that Fernald, the nonprofit’s associate director from
November 2001 to December 2002, used a variety of schemes to embezzle funds from
the AmeriCorps program. Her offenses included:

-Making more than $16,000 in personal charges on NDMVP’s program credit card.
-Writing a check to herself for $1,200 on NDMVP’s account, forging the executive
director’s signature and depositing the funds in her personal account.
-Forging documents that caused NDMVP to pay $1,035 in premiums for her personal
health insurance policy.
-Diverting $19,500 in checks, payable to NDMVP, to her personal checking account.

Tipped to the embezzlement scheme by NDMVP officials, OIG investigators conducted
extensive interviews of NDMVP staffers and used program financial records, e-mails,
canceled checks, credit card data and Fernald’s personal banking records (made available
to the OIG under grand jury subpoena powers) to build their case.
.
